<html>
<title> - NOMINATION OF DAVID C. GOMPERT TO BE PRINCIPAL DEPUTY DIRECTOR OF NATIONAL INTELLIGENCE</title>
<body><pre>[Senate Hearing 111-545]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-545
 
                     NOMINATION OF DAVID C. GOMPERT 
                    TO BE PRINCIPAL DEPUTY DIRECTOR 
                        OF NATIONAL INTELLIGENCE 

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                       TUESDAY, OCTOBER 13, 2009

                               __________

      Printed for the use of the Select Committee on Intelligence

 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-432 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
              CHRISTOPHER S. BOND, Missouri, Vice Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
    Virginia                         OLYMPIA J. SNOWE, Maine
RON WYDEN, Oregon                    SAXBY CHAMBLISS, Georgia
EVAN BAYH, Indiana                   RICHARD BURR, North Carolina
BARBARA A. MIKULSKI, Maryland        TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       JAMES E. RISCH, Idaho
BILL NELSON, Florida
SHELDON WHITEHOUSE, Rhode Island
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
                Louis B. Tucker, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                            OCTOBER 13, 2009

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Bond, Hon. Christopher S., Vice Chairman, a U.S. Senator from 
  Missouri.......................................................     3

                                WITNESS

Gompert, David C., Principal Deputy Director of National 
  Intelligence-Designate.........................................     5
    Prepared statement...........................................     6

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    24
Prehearing Questions and Responses...............................    47
Answers to Questions for the Record..............................   101
Letter from Robert I. Cusick, Office of Government Ethics, Dated 
  August 19, 2009, Transmitting Public Financial Disclosure 
  Report.........................................................   122


                     NOMINATION OF DAVID C. GOMPERT
                    TO BE PRINCIPAL DEPUTY DIRECTOR
                        OF NATIONAL INTELLIGENCE

                              ----------                              


                       TUESDAY, OCTOBER 13, 2009

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
Room SD-106, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Feingold, 
Whitehouse, and Bond.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The hearing will come to order.
    Mr. Gompert, I'd like to welcome you here today to the 
Committee's hearing on your nomination to be the next Principal 
Deputy Director of National Intelligence. That would be the 
second under the command of DNI Blair.
    I want you to know I appreciated our meeting last week and 
believe that you have a strong appreciation for the importance 
of intelligence, a very firm grasp on the challenges we face 
around the world and a willingness to work within the 
intelligence community to make necessary improvements.
    The Principal Deputy DNI has two main responsibilities--
one, to assist the Director of National Intelligence and, two, 
to act on behalf of the DNI in his absence or due to a vacancy 
in the position.
    The role of the Principal Deputy is essential to the 
success of the intelligence community and to its continued 
transformation. If confirmed, Mr. Gompert will be the third 
Principal Deputy DNI since Congress created the position in 
2004.
    Now, both Vice Chairman Bond and I know that there are a 
number of challenges that the intelligence community faces, and 
there are also rays of light. The recent intelligence operation 
to identify and arrest Najibullah Zazi, we believe, shows great 
improvement in collection abilities and the ability for 
agencies to work together.
    So before getting to a list of issues in need of 
improvement, I'd like to take a moment to register my 
appreciation for the fine work that is going on already.
    We talked about some areas last week where I think you'll 
need to focus. One of them is ensuring that the intelligence 
community produces accurate and timely National Intelligence 
Estimates to help policymakers tackle the toughest national 
security issues we face and to help make sure that intelligence 
does not lead us wrongly into war ever again.
    And I think I mentioned to you that one of my main 
interests in being Chairman of this Committee was to see that 
never again is there an NIE like the Iraq NIE was. And I 
believe we're on our way to changing that--to improving 
analysis, to improving red-teaming, to really prevent it from 
ever happening again--and requiring and building the systems to 
allow the intelligence community to share information so that 
the stovepipes which were once up and are now down remain down 
at virtually all levels of the 15-member intelligence 
community.
    Improving our language capabilities across the IC so that 
we can interpret and analyze all of the information coming in. 
I strongly believe that the language deficit is one of the 
greatest hindrances our intelligence community has;
    Reducing our reliance on contractors in the IC. And I 
believe that those things that have inherently governmental 
functions should be done, in fact, by government employees;
    Improving how the IC acquires technical collection systems 
to prevent the huge cost and schedule overruns that had become 
the norm, not the exception.
    So let me say a few words about this nominee. Mr. Gompert 
has almost 40 years of experience as a national security 
professional and information technology company executive. Most 
recently, he was a Senior Fellow at the RAND Corporation and 
previously served as the President of RAND Europe. In 2003 he 
was a senior adviser to the Coalition Provisional Authority in 
Iraq. He has been on the faculty of the National Defense 
University, the United States Naval Academy, and he served on 
the National Security Council and State Department staffs. So 
he has experience as a national security analyst in senior 
White House and State Department positions, where he worked at 
the intersection of intelligence and policy.
    Mr. Gompert also worked as an executive in the private 
sector from 1983 to 1990, where he held Vice Presidential 
positions at Unisys and at AT&T. These experiences give him a 
good management expertise and a unique perspective on how to 
address the challenges lying ahead for the intelligence 
community.
    One point I want to draw attention to is Mr. Gompert's 
written answers to our Committee's pre-hearing questions, where 
he expressed his views that the current size of the Office of 
the Director of National Intelligence is more or less right. 
Mr. Gompert wrote in his answer that the ODNI has less than 2 
percent of the overall intelligence community employees and 
less than 1 percent of employees in the IC dedicated to tasks 
other than those that are part of operational centers like the 
National Counterterrorism Center and the National Intelligence 
Council. In fact, two-thirds of ODNI employees are assigned to 
those operational centers and mission support activities.
    This Committee has fought hard for resources to give the 
ODNI the tools it needs to be effective, and we will continue 
to do so, especially as we prepare for conference negotiations 
with our House colleagues on the 2010 Intelligence 
Authorization Bill, which has passed the Senate now and, we 
hope, can pass the House very soon.
    With that, I would ask unanimous consent that any opening 
statements that Members may have or that the witness may have 
be included in the record in full. And, hearing no objection, 
so ordered.
    Mr. Vice President, I'd like to turn it over to you and 
then ask Mr. Gompert to introduce his family, to welcome them, 
and let him make a statement if he'd care to.
    Vice Chairman Bond. Madam Chair, thank you very much. I was 
actually Vice President of the Alfalfa Club last year, but I'm 
now Vice Chairman of this Committee and the President of the 
Alfalfa Club. But never mind----
    Chairman Feinstein. But what does that get you, now, Mr. 
Vice Chairman?
    Vice Chairman Bond [continuing]. It gets me an opportunity 
to pay a bunch of writers to write a very expensive and, we 
hope, focused roast of everybody in sight. It's a machine-gun 
opportunity. [Laughter.]
    Chairman Feinstein. I won't be in sight.
    Vice Chairman Bond. We might be able to find a spot for 
you.

OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM MISSOURI

    Vice Chairman Bond. I agree with all that you said about 
Mr. Gompert. His background is outstanding. We're delighted 
that he has agreed to take this position.
    I also join with you in issuing congratulations and I will 
second that statement that the intelligence community worked 
together on the recently-announced investigations and the 
successful dealing with some of the challenges here in the 
homeland. And that required great cooperation. There still are 
some more areas we need to work on.
    Madam Chair, I was disappointed to hear that this Committee 
was not going to be able to get an opportunity to consider in a 
classified session some of the provisions in the bill that 
Judiciary just passed out on the PATRIOT Act, because we have 
some questions about it and we've heard those from members of 
the intelligence community.
    And I would like at least to have our members have an 
opportunity to discuss some of them before they reach the 
floor. As one who thinks that the Intelligence Committee is too 
often bypassed, certainly this Act has great ramifications for 
the work that the intelligence community does. And I want to 
make sure we get it right and we don't put unnecessary burdens 
on the intelligence community in collecting the information 
that they need.
    But, with that, I join the Chair in welcoming Mr. Gompert, 
and we look forward to seeing him often. We always have lots of 
questions and we welcome your comments and we thank you for 
taking on these weighty responsibilities.
    The responsibilities of the DNI and his Principal Deputy, 
unfortunately, are not matched by a set of clear and complete 
legal authorities. You've got the responsibility, but not 
always the authority.
    I've repeatedly expressed my concern with this disparity, 
which is the reason I did not vote for the Intelligence Reform 
and Terrorism Prevention Act of 2004. For several years now 
I've been asking your predecessors and past DNIs to tell this 
Committee which authorities need to be enhanced or clarified.
    While the Committee has heard general complaints, that's 
not enough. We cannot change the law unless we understand from 
your standpoint exactly what the problems are. I hope you will 
break the tradition of suffering in silence and that you and 
Director Blair will speak loudly if you believe legislation 
that we could work on here can help you do your job better.
    Now, Mr. Gompert, I was heartened by the emphasis that you 
placed on personal accountability in your written statement and 
responses to the Committee's questions, when you stated, 
``Accountability must include meeting financial commitments 
and, if confirmed, I would insist on that.''
    In this vein, you further noted that, ``A budget is a 
compact whereby a unit can count on an agreed amount of 
resources and the corporation can count on agreed results, and 
that overruns are not just accounting entries but have real 
consequences which, in the national security domain, can be 
profound.''
    I couldn't agree more. I'd hope that if you're confirmed 
you'll put these words into action and make it your business to 
instill in the IC greater business discipline and personal 
accountability, both of which have been sorely lacking in the 
intelligence community. We have many wonderful people out there 
who are doing great jobs. But they have to be accountable to 
the people of America through this Committee and other 
committees. And we want to assure that accountability.
    As I'm sure you've learned in your preparation for this 
hearing, over the last decade, the IC has spent nearly $10 
billion on advanced imagery satellites that have never produced 
a single picture. And that's unacceptable.
    It's also unacceptable that at the same time millions of 
taxpayers face increasing economic hardship the IC still cannot 
produce auditable financial statements detailing how they are 
spending these tax dollars. Even worse is the fact that the IC 
does not expect to be able to produce these statements until at 
least 2015. I doubt that the American family, average American 
family could survive that long without taking a hard look at 
their own budget.
    Now, I don't mean to suggest that the IC is without 
significant accomplishment. The Committee regularly hears about 
the successes and the hard work and dedication of IC employees 
that make those successes possible.
    Part of our oversight responsibility and a significant part 
of your responsibilities, if confirmed, will be to ensure that 
the IC has what it needs to be successful all the time. You'll 
have your work cut out for you. The Committee's oversight has 
revealed some stark contrasts within the IC which would be 
fascinating, but for the fact that our national security is on 
the line.
    For example, as I said earlier, the IC is full of talented, 
brave and dedicated personnel. But it has no discernible 
culture of personal accountability.
    The IC recently demonstrated in the Zazi investigation and 
other counterterrorism successes, as the Chair has indicated 
and I have endorsed, that they have made real progress in 
information sharing and interagency cooperation. Yet there are 
still too many FBI intelligence personnel without easy access 
to top-secret databases and desktop Internet connections.
    The IC is capable of technological marvels which have 
produced a wide array of actionable intelligence for our forces 
in Iraq and Afghanistan. Unfortunately, most of the IC's major 
acquisition programs are hugely over cost and behind schedule 
and, as I noted, some have flat-out failed.
    As you mentioned in your written responses to this 
Committee, when it comes to strategic intelligence, the IC 
failed to warn policymakers of virtually every seismic 
geopolitical change in the last few decades, including the fall 
of the Shah of Iran, the collapse of communism, the emergence 
of the Internet, the rise of jihadism, and last fall's global 
economic collapse.
    If you're confirmed, the task of working with the DNI to 
address these shortcomings will fall on your shoulders. I 
believe you and I'm confident you're up to the task, and I hope 
and look forward to you working closely with this Committee as 
you wade into these issues.
    I congratulate you on your nomination and look forward to 
learning more about how you intend to help lead the IC to 
produce consistently superior results that our nation deserves 
and demands.
    With that, I thank you, Madam Chair. And I apologize. I'm 
going to listen standing up, because I have a bad back and I've 
been traveling all weekend, and I am a lot more comfortable 
standing up as I listen to Mr. Gompert.
    Chairman Feinstein. Sorry to hear that.
    Vice Chairman Bond. So please don't feel that I'm walking 
out on you. I'm just standing up for a little pleasure. Thanks.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Mr. Gompert, if you'd like to introduce your family, and 
any comments you would make we'd be happy to receive.

  STATEMENT OF DAVID C. GOMPERT, PRINCIPAL DEPUTY DIRECTOR OF 
                NATIONAL INTELLIGENCE-DESIGNATE

    Mr. Gompert. Thank you, Chairman Feinstein, Vice Chairman 
Bond. I'm honored to come before you as the President's nominee 
for position of Principal Deputy Director of National 
Intelligence.
    I am, as you suggested, very pleased that my family could 
be here: my son-in-law, Kwan, my daughter Ellie, and my wife 
Cynthia, who has been with me for decades of public service, 
and has helped me immeasurably in the service to the American 
people.
    Chairman Feinstein. Welcome to your family.
    We're delighted to have them here. Thank you.
    Mr. Gompert. Thank you very much, Madam Chairman.
    If confirmed, it will be a privilege to continue that 
service to the American people, to assist Director Blair and to 
work with this Committee.
    The President has stressed the need for first-rate 
intelligence to keep the nation safe, to inform U.S. policies 
and to support U.S. troops operating in harm's way. In turn, 
Admiral Blair has set very demanding standards for the 
intelligence community and is working tirelessly to transform 
that community. If confirmed, I'll do my best to meet those 
very high expectations of the President, of the Director, and 
of this Committee.
    My career consists of three decades in national security, a 
decade in private industry as a senior executive, a record, 
both in and out of government, of institutional reform and a 
commitment to objectivity, and, as the Vice Chairman noted, to 
accountability.
    I hope you will find that I have the qualifications to 
fulfill the responsibilities of the Principal Deputy, the most 
important of which are to ensure that intelligence affecting 
the nation's safety and matters of war, peace and policy is of 
the highest quality, reliable, timely, useful, and totally 
objective, and also to integrate and improve the intelligence 
community for the future.
    If confirmed, I would have no higher duty than to do my 
part to help keep the nation secure from attack. I would also 
support our national decisionmakers and our military commanders 
with intelligence of the highest quality. And finally, work to 
make the intelligence community stronger, by which I mean more 
agile, more integrated, more collaborative and more 
resourceful.
    In approaching these duties, I consider Congressional 
oversight to be a clear obligation, and much more. That 
oversight is crucial for earning public trust in U.S. 
intelligence and for making the intelligence community more 
effective. If confirmed, you can count on me not only to 
provide timely and full information, but also actively to seek 
your counsel and to do whatever I can do to help you fulfill 
your responsibilities in oversight.
    So again, Madam Chairman and Mr. Vice Chairman, thank you 
for holding this hearing at such a busy time for the Senate, 
and I welcome your questions.
    [The prepared statement of Mr. Gompert follows:]
  Prepared Statement of David C. Gompert, Nominee for the Position of 
           Principal Deputy Director of National Intelligence
    Madam Chairman, Mr. Vice Chairman, Members of the Committee, I am 
honored to come before you as President Obama's nominee for Principal 
Deputy Director of National Intelligence (PDDNI). If I am confirmed, it 
will be a privilege to serve the Nation in this capacity, to repay the 
President's confidence in me, to assist Director Blair, and to work 
with this Committee. I thank Chairman Feinstein and Vice Chairman Bond 
for holding today's hearing at a time when Senators have so much on 
their plates.
    The President has stressed the importance of high-quality and 
unbiased intelligence in protecting America, informing U.S. policies 
and leadership abroad, and supporting U.S. forces serving in harm's 
way. In turn, Director Blair has set demanding standards for the 
performance of the Intelligence Community (IC), and is working 
systematically to transform it, as this Committee has encouraged him to 
do. If confirmed, I will do my utmost to meet these high expectations 
and standards.
    My career can be summed up as three decades of work in national 
security, senior executive positions in and out of government, a record 
of institutional reform, experience in exploiting technology for 
strategic advantage, and a fierce commitment to objectivity. I hope you 
will find in me both the professional qualifications and personal 
qualities to fulfill the responsibilities of the PDDNI.
    Those responsibilities flow from the DNI's, which this Committee 
has helped conceive and guide. The DNI exists for two fundamental 
purposes: to ensure that intelligence bearing on the protection of the 
Nation and on matters of war, peace, and policy is reliable, objective, 
and timely; and to integrate and improve U.S. intelligence capabilities 
for the future. These purposes require the DNI to organize 
collaboration and to remove barriers to sharing information throughout 
the IC and with those who depend on the IC: policy-makers, forces in 
the field, and those we look to for Homeland defense. In addition, the 
DNI is responsible for ensuring that intelligence resources, both 
technical and human, are allocated according to national priorities. To 
meet pressing and diverse needs in a turbulent world, optimizing IC-
wide collection and analytic capabilities is crucial and requires 
strong DNI leadership. Also, by forming, proposing, and managing an 
integrated National Intelligence Program, the DNI can assure that 
investments in improved capabilities are well aligned, that they work 
together, and that tax dollars are wisely spent to reflect national 
priorities. This ambitious agenda frames the responsibilities of the 
PDDNI, whether in assisting or acting for the DNI.
    The PDDNI's responsibilities are also shaped by the security 
challenges facing the United States. The foremost challenge is 
unblinking vigilance against threats of attack on the Homeland. At 
present, the most acute such threat comes from terrorist groups with 
strategic aims, strategic reach, and abiding hatred of the United 
States, the most dangerous of which is al Qa'ida. Beyond warning and 
preventing attack, we must understand, find, outsmart, strike, cripple, 
and defeat these terrorists. That they would eagerly use against us any 
weapon they get their hands on makes this priority all the more 
compelling. Recent U.S. success against al Qa'ida is a dividend on a 
more integrated national intelligence effort. Whether on the Afghan-
Pakistan border or anywhere else on Earth, the goal of intelligence 
must be to leave them no place to hide.
    The second challenge is to prevent and counter the acquisition of 
weapons of mass destruction (WMD), especially by reckless regimes and 
violent extremists. The recent disclosure of Iran's enrichment facility 
at Qum underscores that integrated intelligence is a prerequisite of 
effective counter-proliferation. Iran and North Korea are critical 
priorities in their own right and because they could spawn further 
proliferation. The wider challenge is to be able to discover the 
diversion of fissile material, illicit weapons production, and 
trafficking in WMD materials and know-how.
    The third challenge is to comprehend the implications of a changing 
world--shifting power, emerging threats, economic interdependencies, 
and new opportunities. China could become a global partner, a rival or 
both. India has growing capacity and clout, and is strategically 
located. Cyberspace, health, climate, energy, fragile states, world 
trade, and financial markets all pose security challenges, thus 
intelligence challenges. At the same time, more and more countries are 
willing and able to partner with the United States in tackling these 
problems. As Director Blair has stressed, good intelligence should 
illuminate opportunities as well as dangers for U.S. policy and 
security.
    Against this background, I would if confirmed have no greater duty 
than to help keep the United States safe from attack. Even with 
decisive actions and successful policies abroad, it could take many 
years to defeat the likes of al Qa'ida. Meanwhile, weapons of mass 
destruction and delivery means could spread. These conditions place a 
premium on unimpeded sharing of information, prompt threat assessment, 
active collaboration, and the setting of clear priorities at every 
level across the IC. My goal would be to enhance cooperation among all 
arms of the IC.
    I would also commit myself, if confirmed, to give our national 
security decision-makers intelligence on which they can rely. The PDDNI 
is expected to play a supporting role in the NSC inter-agency process 
while maintaining strictly the objectivity of intelligence analysis. If 
confirmed, I would adopt the discipline of explaining what the IC knows 
in its entirety; what it does not know; what it thinks; what is likely 
to happen; and what may be unlikely to happen but is very consequential 
and thus crucial to watch. For these purposes, I would rely on the best 
intelligence professionals and technologies in the world, making use of 
secret means while making sense of a growing abundance of open 
information. I would be as ready to have my thinking challenged as to 
challenge the thinking of others in the IC.
    If confirmed, I would also work to make the IC stronger than it is 
now--more integrated, more agile, and better understood and supported 
by the public. Stronger also means being more resourceful: exploiting 
information technology to expand sharing in both intelligence and 
business functions; creating economies and efficiencies by 
collaborating; and developing people who can excel in and strengthen 
such a community. That we are beginning to see a positive return on the 
effort to transform U.S. intelligence should make us even more 
determined to press ahead with that transformation, for we have a long 
way to go.
    Managing the IC is a challenge. The DNI and PDDNI must accept heavy 
responsibilities while at the same time empowering the agencies of the 
IC to facilitate agile operations, encourage initiative, and respond to 
changing threats and opportunities. The IC's decentralized structure 
need not be a problem--in fact, it is a strength. Having fifteen of its 
elements reside within six different departments makes U.S. 
intelligence more responsive to those who depend on it. Increasingly, 
these departments are benefiting from the DNI's integrative efforts, 
and the arrangement of shared authority between the DNI and those 
department heads is working better and better. Moreover, by organizing 
cross-agency teaming, such as national intelligence centers and mission 
management, it is possible to gain the benefits of both integration and 
decentralization.
    The imperative of integrated intelligence requires creating shared 
networks, setting common standards for handling sensitive data, and 
overcoming cultural barriers. In time, sharing across all intelligence 
agencies should be institutionalized, resources optimized, operations 
harmonized, and the Nation made safer with less need for DNI insistence 
and intervention. Meanwhile, it is up to the DNI and PDDNI to create 
conditions so that responsibility remains clear, the power of 
decentralization is fostered, the hardest challenges are tackled by 
cross-agency teaming, and collaboration becomes the norm.
    To me, the Intelligence Community's oversight by and cooperation 
with Congress are not only obligatory but also crucial for maintaining 
public trust and for the effectiveness of U.S. intelligence. Trust 
between the American people and their Intelligence Community is 
critical because of the secrecy that must surround its work, the 
potency of its tools, natural concerns about privacy and civil 
liberties, and the consequences of intelligence failure. Key to 
building public trust is the IC's accountability, both to the President 
as the executive and to the Congress as the people's representatives.
    Moreover, a close working relationship with Congress will make the 
IC better at meeting the dangers the Nation faces. Strengthening this 
relationship is a major responsibility of the PDDNI. It requires not 
only furnishing timely, full, and reliable information on significant 
matters to Congress but also inviting your counsel and your concerns. 
This DNI has made clear to the entire IC, and to me, the importance he 
places on communications and cooperation with Congress. He and I both 
believe that the IC benefits from your oversight. If confirmed, I will 
make myself fully available to you and will actively seek your views.
    This is both a critical and a formative time for U.S. intelligence. 
Success requires that the leaders of the IC work to build the 
confidence of the American people. Director Blair has said that he 
wants to increase public understanding of, trust in and admiration for 
the Intelligence Community and its talented and dedicated people--the 
way our military has earned such respect. If confirmed, I will join him 
in that effort. The way we work with and answer to this Committee can 
be instrumental to that purpose.
    Again, Madam Chairman and Mr. Vice Chairman, thank you for holding 
this hearing, and thanks to all Members for considering my nomination. 
I welcome your questions.

    Chairman Feinstein. Thank you very much, Mr. Gompert.
    I have just, first of all, some very precise but 
rudimentary questions that we ask every witness. Yes or no will 
suffice.
    Do you agree to appear before the Committee, here or in 
other venues, when invited?
    Mr. Gompert. Yes, I do, Madam Chairman.
    Chairman Feinstein. Do you agree to send officials from the 
Office of the Director of National Intelligence to appear 
before the Committee and designated staff when requested?
    Mr. Gompert. Yes, I do, Madam Chairman.
    Chairman Feinstein. Do you agree to provide documents and 
any other material requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. Gompert. Yes, I do.
    Chairman Feinstein. Will you ensure that your respective 
offices provide such material to the Committee when requested?
    Mr. Gompert. I will do so, Madam Chairman.
    Chairman Feinstein. You're batting 100 percent so far. 
Thank you.
    Mr. Gompert, could you describe how you and Director Blair 
will be sharing and dividing responsibilities, if you are 
confirmed? And let me give you just a couple of specifics.
    I understand you may assist Director Blair by briefing 
policymakers, so that he'll be able to focus on the so-called 
``big picture'' issues. Is that correct?
    Secondly, who will be briefing the President each morning?
    And thirdly, who will be coming to Congress to testify on 
oversight hearings?
    Mr. Gompert. Madam Chairman, from the day he asked if I 
could take this position, if nominated, Director Blair and I 
have been discussing what an appropriate and helpful division 
of labor would be.
    What we've worked out, and what he's decided upon, is a 
little bit different than you often see with regard to the 
number one and number two person in a large government 
organization. Often the number one person is engaged primarily 
in external work--in the case of intelligence, in participating 
in the interagency policy process--and the number two is much 
more of an internal manager.
    Director Blair has decided on a somewhat different division 
of labor in our case, given my broad background in national 
security, including policymaking and bringing intelligence to 
bear on the policy process. He feels that I could be of 
greatest use to him, to the community, and to the nation by 
being heavily involved in the interagency process--bringing our 
intelligence products to bear on policymaking. That would give 
him that much more time to concentrate on the daunting task of 
transforming and integrating the intelligence community.
    Now, having said that, Madam Chairman, I do want to stress 
that both of us have responsibilities that cut across the 
entire intelligence community, both internal and external. I 
have management duties; I will be will be chairing various 
committees; I will certainly be mindful of the needs to 
continue to develop our personnel. So I will have many internal 
responsibilities.
    But to answer your question directly, I think I'll be 
mostly working the ``outside beat,'' if I can put it that way.
    Chairman Feinstein. The ``outside beat,'' or the inside 
beat? What you're saying is, how intelligence affects policies.
    Mr. Gompert. That's correct.
    Chairman Feinstein. So does this mean you'd do the 
President's PDB?
    Mr. Gompert. On the President's PDB, the Director is the 
chief adviser to the President on----
    Chairman Feinstein. So he will do that.
    Mr. Gompert [continuing]. On matters of intelligence, and 
he would certainly continue to do that. Of course, in his 
absence, I would be present for that briefing.
    Chairman Feinstein. And he would continue, then, to 
regularly brief the Intelligence Committees?
    Mr. Gompert. Yes, he would.
    But there is one area in which he has stressed to me that 
we would not have a division of labor, and that is with regard 
to the Congress and to this Committee. We would both regard 
that as important responsibilities. So you will see a great 
deal of both of us--certainly no less of him, and a good deal 
of me.
    Chairman Feinstein. Give me an example of what you would do 
where intelligence meets the road of policy.
    Mr. Gompert. I would first see to it that all of the 
intelligence capabilities that we can bring to bear--collection 
capabilities, as well as analytic capabilities throughout the 
intelligence community--are brought to bear on whatever policy 
question is presented.
    I would guarantee, of course, that the intelligence effort 
not wander across the line between the provision of objective 
intelligence and policy advocacy. That's an extremely important 
line.
    Chairman Feinstein. Well, let me be clear. For example, 
what to do in Afghanistan. Would it be your responsibility, 
then, to assemble all of the relevant intelligence for the 
President to consider in making his decision with respect to 
General McChrystal's recommendations?
    Mr. Gompert. Yes. On a matter of such tremendous national 
importance, certainly both the DNI and the Principal Deputy 
would be deeply involved in collecting and synthesizing the 
intelligence for the President for such a decision. And, in 
fact, Director Blair has been extremely busy doing precisely 
that over recent weeks as the President has faced this 
decision.
    But this is not something that the Director would delegate 
to me. On a matter of that importance, we would both be heavily 
involved.
    Chairman Feinstein. On the subject of contractors, I think 
our Committee has been very outspoken on the need to reduce the 
IC's reliance on contractors. We have doubled the cut in the 
authorization bill from five to 10 percent. I'm encouraged by 
your written questions that contractors should be used less, 
and my specific question is exactly how do you prepare to 
proceed, because the number of contractors used by these 
agencies is astronomic.
    Mr. Gompert. Well, Madam Chairman, the Committee is quite 
right to raise this question because there has been substantial 
growth, really since the end of the 1990s. We dipped down in 
terms of our head count in the first decade after the Cold War 
and then, finding all of the intelligence demands we face, we 
found that the quickest way to meet those demands was not by 
growing our professional staff but by going out and contracting 
work. And the pendulum is swinging back in the other direction, 
as well it should.
    One specific thing that I will do that I think will move 
the pendulum in the right direction is every time someone 
approaches me and says that we have to use a contractor because 
we lack certain governmental capabilities to perform a task, 
the question I will ask is should we have those capabilities. 
Should we have provided those capabilities? And what steps do 
we have to take, including coming to Congress, to ensure that 
we build those capabilities for the future so we're never in a 
situation where we must use contractors for lack of government 
capabilities?
    While that's true in general, it is all the more true when 
we talk about inherently governmental functions and other 
critical and sensitive functions that the government and only 
the government should perform.
    Chairman Feinstein. Thank you very much.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you very much, Madam Chair.
    The Chair mentioned Afghanistan, so I thought I'd ask you 
if you believe you have enough intelligence, based on your 
experience and what you may have learned about Afghanistan. Do 
you have a view on whether the United States would see the 
Taliban, if they were to regain a substantial foothold in 
Afghanistan, providing safe haven for armed groups including 
al-Qa'ida, as they did during their short reign from the late 
1990s until 2001?
    Mr. Gompert. Mr. Vice Chairman, I do have some experience 
with Afghanistan. I've been there----
    Vice Chairman Bond. I know you have.
    Mr. Gompert [continuing]. A number of times, I think the 
first time was in 1974. I have not, however, been involved in 
the preparation of any intelligence materials, let alone in the 
process that Director Blair has been involved in with the NSC 
on Afghanistan. So I would have no basis for commenting on----
    Vice Chairman Bond. That's why I asked. That's the kind of 
question that probably the next time you come before the 
Committee you will be asked about.
    Mr. Gompert [continuing]. Absolutely.
    Vice Chairman Bond. That's just a heads up. Those are the 
kinds of things, if you're representing the DNI, we want to 
know.
    I mentioned the lack of explicit legislative authority and, 
in the answers to questions about working with the IC, you 
conclude that the arrangement currently under way ``appears to 
be working well and steadily improving.'' Do you have any 
concern that things seem to be working well now because of the 
good personal relationships which could quickly change? We 
think there's great personal compatibility in working 
coordination. If those personalities were not there, would the 
DNI be able to function as effectively as we hope he functions 
now?
    Mr. Gompert. Vice Chairman, I think that's an extremely 
important question because we are blessed by having 
personalities in the intelligence community and the departments 
that have elements of the intelligence community who know how 
to make things work. I've known both Director Blair and 
Secretary Gates for decades and these two leaders have 
certainly helped to produce a much improved relationship 
between the military side and the civilian side.
    The key is not to depend upon personalities and personal 
harmony, because you're not always going to have it. When you 
do have it, as we do now, it is important to institutionalize 
this relationship. So what I've looked at carefully with regard 
to the relationship between the Defense Department and its 
intelligence elements and the rest of the intelligence 
community is, are we institutionalizing this good relationship. 
And I think the answer is yes, we are with regard to the 
allocation of resources, the setting of priorities and so on.
    Vice Chairman Bond. I would ask, if you see that additional 
authorities are needed, I would ask you to share those views 
with the Committee, even if there may be others in the 
Administration who do not agree with them. Would you be so kind 
as to share those views with us?
    Mr. Gompert. Yes, I would, sir. As I've said, my in-going 
position is that we have the authorities we need, and if that 
proves to be inadequate, I would not hesitate with the Director 
to come back to you and take you up on your offer.
    Vice Chairman Bond. Well, let me get right to the heart of 
the matter. The DNI has no budget authority over the Military 
Intelligence Program or MIP, but significant portions of the 
National Intelligence Program, NIP, budget directly support 
military operations to Afghanistan, Iraq and elsewhere, and the 
DOD exercises considerable influence over NIP budget and 
acquisition decisions. Do you think the DNI should have greater 
authority to influence the MIP, at least as much influence as 
the Secretary of Defense exercises in the NIP?
    Mr. Gompert. One of the important officials in the 
intelligence community in this regard is the Under Secretary of 
Defense for Intelligence, currently retired General Clapper. 
And that official occupies a very important position on the 
question you raise because he in a way is the portal of the DNI 
and the PDDNI into the Defense Department and into the Military 
Intelligence Program. So we count on the Under Secretary to 
ensure that the views of national intelligence, as articulated 
by the Director and the Principal Deputy, are in fact 
communicated as the Military Intelligence Program is formulated 
within the defense budget.
    You're right to say that there is no control exercised by 
the DNI over the Military Intelligence Program. But I believe 
that we do have the opportunity to have considerable influence 
on it. So I will watch that very closely, and if I judge that, 
because of a lack of authority in that regard, working through 
the Under Secretary for Intelligence, that there's something 
else we should do to bring about greater harmony than we 
currently have, then again, with the Director, I would not 
hesitate to come back and talk to you about it, Senator.
    Vice Chairman Bond. I would just suggest that you follow 
the admonition of a leader a few years ago who said trust but 
verify.
    Thank you very much, Madam Chair.
    Chairman Feinstein. Thank you, Mr. Vice Chairman.
    Senator Feingold.
    Senator Feingold. I thank the Chair and thank you, Mr. 
Gompert, for your willingness to serve in this position for 
which you are clearly qualified, and I really did appreciate 
the meeting we had last week and just want to quickly revisit a 
few of the issues we discussed, starting with Congressional 
notification, including statutory notification obligations.
    After our meeting, did you have a chance to look at the 
National Security Act, and, if so, do you agree that the 
provision authorizing the so-called Gang of Eight notifications 
appears only in the section of the law related to covert 
action?
    Mr. Gompert. Yes, Senator, I did go back and study the 
language and also spend some time with the General Counsel 
discussing this. And you're absolutely right that that 
particular method of consultation is covered under Section 503 
and not under 502. In discussing this with counsel, the view 
there is that the fact that it is not covered explicitly under 
502 neither mandates the use of that particular method nor 
precludes the use of that particular method, and that, 
therefore, from the point of view of our General Counsel, the 
fact that there has been a practice of applying the method 
specified by 503 also to activities other than covert 
activities suggests that it is a reasonable interpretation. 
But, Senator, I acknowledge that it does appear in one section 
and not in the other section.
    Senator Feingold. I appreciate that. And you know my view 
that I don't think it's a reasonable approach to statutory 
interpretation to say that somehow you can import that language 
into another amendment that isn't there and that that isn't a 
prohibition. But you've been fair in responding.
    Let me take this tack. Would you agree with Director Blair 
that this would only give the DNI a degree of latitude with 
regard to how and when, not whether, the full Committee should 
be notified? And would you agree that months and years of 
keeping the Committee in the dark, as was the case with the 
warrantless wiretapping program, certainly exceeds whatever 
such authorities might exist?
    Mr. Gompert. Yes, Senator, I certainly agree with Director 
Blair that this is not a matter of whether there's an 
obligation to provide full and current notification, but how 
it's provided.
    As to the question of oversight and notification and the 
sharing of information in general, I feel quite strongly that 
this is a matter of obligation, but not only a matter of 
obligation, that the intelligence community has to constantly 
work to earn public confidence and public trust. It's in the 
nature of our work that we have to work very hard to that end.
    And I think that being open with you and full and timely in 
that openness is really an important aspect of winning and 
keeping that public trust, and also in permitting you to 
perform your oversight duties, which in turn, I believe, helps 
us be more effective.
    So to me, it's not only a question of are we absolutely 
obligated, but should we--above and beyond our obligations, is 
it in the interest of the country to do so?
    Senator Feingold. I appreciate that, and we'll get back to 
the issue about notification over time.
    You said that in setting--on a different issue--in setting 
intelligence community priorities, ``the immediate should not 
overwhelm the future.'' And, as you know, I've long shared 
these concerns. I also know that you have particular 
responsibilities for meeting the intelligence needs of 
policymakers, who, as we all know, are inevitably focused on 
current crises often rather than long-term or long-range 
strategic threats.
    So how is the Deputy DNI an interlocutor with these 
policymakers? Will you try to overcome this persistent problem?
    Mr. Gompert. The problem, as I see it, is that there's a 
very strong current demand from the policy community and from 
our military commanders for intelligence collection and 
analysis on immediate problems. This does not mean that our 
commanders and our decisionmakers are shortsighted, but this is 
really what they most need.
    Therefore, it is really up to the leadership of the 
intelligence community--and by this, I mean not only the 
Director and the Principal Deputy Director, but all the leaders 
throughout the intelligence community who command both 
collection and analysis resources--to realize that we have a 
duty to perform strategic analysis, to look at the issues that 
could become major national security problems in the future, 
even if they aren't today, to perform strategic warning, and 
also to look at things that would be of great consequence even 
if they may not seem very probable.
    So the first point is that we have to accept that it is our 
responsibility to do that even if it is not in response to 
immediate demand. Second, we have to allocate resources 
accordingly. And again, resources will tend to flow toward 
where the demand is the greatest and the loudest. And we are 
going to have to fence off the analytical capacity and use our 
intelligence-gathering capabilities to address these long-term 
questions, some of which are at least as complex if not more 
complex than some of the immediate problems we face.
    I think that, when you look back over decades, we've missed 
some very important developments, watershed developments, that 
may not have seemed likely before they happened, but if we had 
only listened to that one dissenting voice, if we had paid 
attention more to what might change all of our assumptions, we 
might have been better prepared.
    So it is a struggle. I have discovered, though, in my 
preparations for this confirmation, in talking to the Chairman 
of the National Intelligence Council and our NIOs, that there 
is a keen awareness of this. There has recently been stood up a 
unit specifically for long-term analysis. There is a growing 
commitment to working a variety of issues where the 
intelligence community may not be active in gathering 
information because it's all out there in the public domain, 
but in assessing that information and getting it to 
policymakers in a form that they can use to take preventive 
action.
    So I sense that the intelligence community, for all of the 
immediate pressures we face, is mindful of your admonition in 
this regard, and they'll certainly hear it from me as well.
    Senator Feingold. I really appreciate that answer.
    And I thank the Chair.
    Chairman Feinstein. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, Mr. Gompert. Thank you for your willingness to 
take on this task. And I must say I particularly appreciate 
your administrative and management background. As you probably 
know, there are very significant acquisitions programs which, 
in the covert world, do not benefit from daylight, public 
oversight, press scrutiny and other things. And I think your 
attention to some of these classified programs and the manner 
in which they are pursued will be very helpful.
    Every agency risks becoming the captive of its contractors. 
And in the dark areas of our national security program, that 
concern is, I think, particularly acute. And your experience in 
that area will be helpful.
    One of the problems that you will encounter--with me, 
anyway--is the question of declassification. As you are aware, 
there is such a thing as a declassifier in the United States 
government, somebody who can utter essentially any secret, and 
instead of having divulged it or revealed it, they have 
declassified it. And all of those people are presently in the 
executive branch of government.
    And, regrettably, in recent years that fact has been used 
to rhetorical advantage, even at considerable cost in 
misleading the American public about what the actual facts are.
    As somebody who has spent a good deal of his life in a 
courtroom, I will tell you I feel intense personal frustration 
when I know facts that would rebut a case that an 
Administration is making, and they've declassified their side 
of the argument and kept mine classified, and I have to keep my 
peace even though the public is being misled.
    I think there's something that we now need to do about 
that. I think that horse is out of the barn. There's no 
Administration that will ever unlearn what the previous 
Administration learned in terms of that capability. And I just 
want to let you know that I think that's an issue that we need 
to work on.
    I'm not quite sure what the solution is. But to the extent 
that, among the rival branches of government, the executive 
branch has that power unilaterally, the desire and the reward 
of using it, I think, will continue to prove irresistible. And 
in my view, it has led to very, very substantial 
misapprehensions of what circumstances are by the American 
people, because they've frankly been fooled. And we haven't had 
the chance to explain things more clearly because of that 
declassification muzzle that we've been under. So I look 
forward to working with you on that.
    The third topic that I think is of key interest where you 
have considerable background and interest is in maintaining our 
cybersecurity. You mentioned in your testimony China in 
particular as a threat that is constantly, I think you said, 
exerting its power in cyberspace. And I would like to hear your 
thoughts on where we stand, both in terms of policy, 
preparedness, and resources to deal with the cyber challenge, 
bearing in mind that this is a public forum.
    Mr. Gompert. Thank you, Senator. And I appreciate the 
strong views that you shared with me with regard to acquisition 
policy and results and also with regard to the need for 
objectivity--strict objectivity--with regard to 
declassification. I will heed both of those comments and be 
happy to come back and discuss with you whether you think 
there's more that I can do on those points.
    Senator Whitehouse. As long as you're aware of them as a 
matter of concern, and I'm sure you are on the first one, I 
wanted to highlight for you the second one because, as I said, 
as somebody who's used to the give-and-take of argument in 
courtrooms, in politics and a variety of other forums, the idea 
of being muzzled when you know things that should be in the 
debate is deeply frustrating, particularly when it leads to the 
public being misled.
    But back to cyber.
    Mr. Gompert. Right. Well, Senator, I don't think I can 
assure you that this country or, for that matter, this 
government has achieved a satisfactory ability to defend all of 
its networks. We've seen such a remarkably rapid growth of 
information networking of all forms, especially the Internet, 
to the point where we are heavily dependent and, by virtual of 
that dependence, also vulnerable.
    So I think we have to face that. You know, we're vulnerable 
to the exploitation of, interference with, and disruption of 
information on which we rely vitally as a country and on which 
each individual relies vitally.
    So we need to start with that understanding, and I think 
there is a broad understanding now within the executive branch 
and with the Congress and, increasingly, within the industry 
itself to that effect.
    I think it's important to establish responsibilities, which 
is not easy because the starting point is that every 
organization that manages, designs, or operates a network has 
the responsibility for the integrity and security of that 
network. Cyber security is not something that you can appoint 
somebody to take care of and then the rest of us can forget 
about because all of us who use networks and, certainly, all 
who control networks have that responsibility.
    For the government, the responsibility falls heavily to the 
Department of Homeland Security for the non-national security 
networks and non-national security information. And I'm told 
that the Department of Homeland Security is ramping up 
significantly its capabilities to improve network defense for 
such government networks and to work with other network 
providers where critical infrastructure is concerned. Whether 
they have enough capability at this particular stage, I can't 
say, but I can say that they are growing that capability 
rapidly.
    On the national security side, of course, we have 
considerably more capability, both in the defense establishment 
and in the intelligence community. Our responsibility, along 
with our defense colleagues, is the security of our national 
defense and intelligence networks, and I believe--in fact, I 
know there's excellent cooperation between DoD and the 
intelligence community on the security of the networks on which 
we rely for national security functions. It doesn't mean that 
we should not be concerned about those networks, but we've got 
excellent capabilities in this regard.
    The intelligence community does have important 
responsibilities. One, of course, is to ensure the cyber 
security of the intelligence community's own networks. But the 
other responsibility is in threat assessment. We're responsible 
for assessing the threat not only to the intelligence 
community's networks but to our national security networks, 
other government networks, and, indeed, those throughout the 
country where we have important information about the growth of 
one or another kind of threat.
    The intelligence community has the responsibility to share 
that information, again, as you suggested, consistent with 
concerns about classification. So we take very seriously--and I 
would, if confirmed, take very seriously--that larger 
responsibility in cyber security.
    I think that the Administration will be appointing a 
coordinator. I've heard that this position will be filled. I 
think that's a good step. I think that's important not only for 
bringing about greater harmony and some standards across 
government networks but also speaking to the country at large 
about the importance of cyber security and the responsibilities 
that all users bear.
    I hope that's responsive to your question. I'd be happy to 
go further.
    Chairman Feinstein. It was substantial in length, if not in 
responsiveness. In any event--no, I didn't mean that as a 
knock. I just meant it as a friendly comment.
    I want to go back to why the DNI was authorized in the 
first place. And I think both Senator Bond and I were on the 
Committee at that time. There was real concern about the 
sharing, about the need to transform the intelligence agencies 
from a CIA/KGB mentality into this new asymmetric world to be 
able to engage in cultures where we had not previously engaged.
    We found that the intelligence community was intensely 
territorial and competitive. And, therefore, the creation of 
one overarching authority that could, in fact, move the deck 
chairs on the Titanic, so to speak, but could better 
coordinate, better direct, better see that intelligence needs 
were fulfilled was important. It was not meant to interfere 
with the operations of any department, particularly the CIA.
    The question I want to ask is, if you look at the DNI's 
budget today, it's getting very big. And I'm concerned that the 
original intent is subsumed into a much broader agenda. And I 
really don't want to see that happen.
    How would you work to prevent it from happening?
    Mr. Gompert. Well, Madam Chairman, just a couple comments, 
if I may, first of all.
    Chairman Feinstein. Sure.
    Mr. Gompert. I think significant progress has been made 
toward exactly the vision of the DNI and of the intelligence 
community that you had and that the Senate had in its role in 
conceiving and launching the DNI.
    I do not believe--in fact, I'm absolutely sure from all of 
my discussions with Director Blair and his chief lieutenants--
that there is any interest in going beyond that vision, none 
whatsoever.
    He has those overarching authorities and oversight 
responsibilities, as you suggested, and he also has the 
responsibility to make the community more collaborative, as you 
suggested.
    But as to micromanaging the activities of various 
agencies--16, for that matter--there is no interest in doing 
that and, really, no significant capability to do that. When 
you think about the size of the ODNI staff, I would point out, 
as you yourself suggested, Madam Chairman, that two-thirds of 
the folks on the ODNI staff are performing line intelligence 
activities that are best organized at the IC level and, 
therefore, report to the Director, like the National 
Counterterrorism Center, the National Counterintelligence 
Center, and the National Counterproliferation Center.
    The actual staff of the Director is 500 to 600 people 
which, given the size and the decentralized nature and the 
diversity of the intelligence community and the need to 
transform it, does not strike me as an excessive staff at all 
and certainly not an indication that any of us would want to 
overstep the important line that you suggested between 
oversight and integration on the one hand and the management of 
operations on the other.
    Chairman Feinstein. One of my concerns is the inability to 
get human intelligence that is of the culture, of the 
languages. And we note that progress is extraordinarily slow in 
that regard. Do you have any positive suggestions that might 
encourage greater progress?
    Mr. Gompert. I would certainly start by looking at the 
language deficit that you mentioned. Part of learning a 
language is learning the context of that language and learning 
the culture. It doesn't do you any good just to learn the 
grammar and vocabulary if you don't really understand that 
culture.
    So I consider language training and education to be of 
critical importance. We have to recognize that we may not have 
all we need, but as part of that effort we should also be 
improving the cultural awareness and sensitivity and ability to 
operate throughout the intelligence community.
    Chairman Feinstein. I mean practical suggestions.
    Mr. Gompert. I would like to discuss that, if I could, with 
our chief of human capital and find out what I could do that 
would be most helpful to the Director and to our human capital 
people and then come back to you with something more concrete, 
if I could, Madam Chairman.
    Chairman Feinstein. Well, we will schedule that. I will not 
forget that. So I'd very much appreciate it if you would do 
that, because I think we have pushed on this for at least six 
years now and it's excruciatingly slow. And to have major 
platforms in Islamic countries where so few of the people speak 
the language I think is really not effective. So we will be 
very interested in your observations and your recommendations.
    Mr. Vice Chairman.
    Vice Chairman Bond. Thank you very much, Madam Chair.
    Just a couple of questions I wanted to follow up on in 
answer to the Chair's first question. You talked about the 
division of responsibility with the DNI--briefing Presidents 
and attending meetings, which too many of us are plagued with 
meetings. We find that that is one of the most infectious 
diseases up here for which there's been no vaccine developed.
    But we have heard complaints from the working-level DNI 
staff and seen examples where the pressing daily requirements 
on the DNI to brief the President and the Congress and 
attending meetings with interagency senior leadership has not 
allowed enough attention to be paid to day-to-day staff 
management, resulting in inertia, stalemates on important 
policy and oversight issues--things that need to be settled by 
someone with authority.
    Now, will the DNI be focusing on that or will you be 
focusing on it? Apparently we hear there's a problem. Which one 
of you is going to solve it?
    Mr. Gompert. It sounds to me, Mr. Vice Chairman, that it's 
a problem that both of us will have to work on, because we both 
need to manage the external demands on the community and the 
DNI staff. And certainly we both have those management 
responsibilities.
    But I know that the sort of concerns that you have 
expressed would be of great concern to the DNI. I'll report 
those to him and one or both of us would return to you with 
some evaluation of that and comment on what we can do to lessen 
the daily load and pay more attention to the long-term 
stability of the staff and its work.
    Vice Chairman Bond. Nothing personal, but based on a little 
experience I've had in management, I want the belly-button 
solution. I want to know who's taking primary responsibility 
for it, because if we continue to hear it, I want to know one 
person whose belly button I should point to to ask that 
question.
    Would you let us know how you and the DNI choose to handle 
it and who's going to be focusing on that?
    Mr. Gompert. Well, since I'm here, Vice Chairman, I can 
volunteer this belly button. And if the Director says, ``No, I 
will take it,'' then we will let you know that he is taking it.
    Vice Chairman Bond. You've got the belly button until we 
hear of a hand-off.
    Mr. Gompert. Yes, sir.
    Vice Chairman Bond. I want to ask you one other question 
that's a particular interest of mine, and that is information 
on energy. Energy security is, I think, a vital concern these 
days, because, as we all know, tremendous amounts of the fuel 
that we currently use is controlled by people who are not 
friendly to the United States in varying degrees--some of them 
being near zero on the friendliness scale.
    And we need to have better information, because energy can 
be used as a tool for major foreign policy initiatives; it can 
be used as a direct weapon--cutoff of energy supplies can be 
almost as effective as a cyber attack or a military attack. And 
the previous DNI claimed that the NIO for economics was the 
quarterback, yet when we informed this officer of the DNI's 
view, she was surprised that that was her responsibility.
    Do you think energy security is an area that could benefit 
from formal mission management; and do you see any analogy 
between the role of a combat commander and that of an IC 
mission manager?
    How important do you think that is? What degree of emphasis 
do you think that particular area should consume?
    Mr. Gompert. Vice Chairman, I think it warrants a great 
deal of attention--more than it has had in the past.
    Now, there are two aspects of this on which the 
intelligence community should especially concentrate. One has 
to do with the technical aspects of it. My understanding is 
that the intelligence unit--the analytic unit--within the 
Department of Energy is doing more on the question of energy 
security from the point of view of the economic and technical 
aspects.
    The other aspect, as you alluded to it, is that energy 
insecurity may result from political instability or 
manipulation on the part of states--either weak states or 
unfriendly states. So that aspect also must be addressed by the 
intelligence community, starting with our analysts in the CIA 
and our National Intelligence Council.
    I did raise this in my discussions in preparation for this 
hearing with the National Intelligence Council. And the strong 
impression I had is that they are devoting more attention to 
this and will continue to do so because of the great concerns 
that you and others have registered about it.
    Vice Chairman Bond. I think that's something we'll have 
continuing discussions about with you. And I thank you very 
much.
    Thank you, Madam Chair.
    Chairman Feinstein. Thank you very much, Mr. Vice Chairman.
    Senator Whitehouse.
    Senator Whitehouse. My final question, Mr. Gompert.
    We've had, on the Intelligence Committee, considerable--
we've experienced, I guess, considerable dismay at the news 
reports of classified information, very often attributed to 
present or former executive branch officials. And some of the 
leaks have been of information that at least when presented to 
us has been presented in a very high security context with 
staff, you know, required to leave the room and things like 
that. Then the next thing you know, a newspaper has it.
    The intelligence community has profited, I believe, very 
considerably from the teamwork and coordination of different 
services and different elements of the intelligence community 
and I'd like your thoughts on two things.
    One, how significant at this point do you consider the 
problem of leakage out of our covert agencies to be; and two, 
if you consider it to be a problem that merits serious 
attention, would the strategies of interagency coordination and 
so forth that have proven so valuable in intelligence gathering 
be applicable in this area, so that prosecutors who might have 
to look at these cases, FBI agents who might have to 
investigate these cases, counterintelligence folks in the 
covert community who might have to screen them to protect the 
integrity of the agency secrets, H.R. people who have to deal 
with what folks' rights are who may be under a cloud of 
suspicion could all be brought together and in a more 
coordinated way try to take a better look at this?
    There seems to be a lot of people standing around in the 
outfield with the balls falling between them right now.
    Mr. Gompert. Well, over 30 years of service in national 
security I've developed a very low tolerance for leaks of 
classified information.
    Senator Whitehouse. Well, you're in for a treat then.
    Mr. Gompert. I'm not sure, Senator, that I see it getting 
worse. I'm not sure that I would say that it is worse in one 
part of the executive branch than it is in another.
    Leaks are harmful and they seem to be inherent, but should 
not be tolerated. So I feel very strongly about that. Whether 
the particular method that you have suggested would pay off in 
practical terms I would like to give some thought to. What 
you're suggesting is----
    Senator Whitehouse. If you don't mind, take that as a 
question for the record and get back to me, because it's much a 
proposal as it is a question. But it does strike me that this 
is one of those things where everybody talks about it and 
everybody has strong opinion about it, but nobody ever does 
anything about it.
    And when you see places where there should be 
coordination--for instance, between the intelligence community 
and the Department of Justice when it comes to prosecution--
that handoff should be a pretty seamless one; and yet there's a 
chasm between the two agencies about what each reports about 
the other's performance across that linkage, which causes me to 
think that some of those techniques and strategies of 
coordination might be useful in this area.
    Mr. Gompert [continuing]. I will certainly get back to you 
after discussing the idea and give you my opinion about it, 
including whether and how we might be able to move it forward.
    Senator Whitehouse. I appreciate that.
    Thank you, sir. And again, thank you for your willingness 
to serve in this capacity. And my congratulations and respect 
to your family for the long hours and late nights and stresses 
and strains that they will share with you, without 
compensation, as members of your family.
    Mr. Gompert. Thank you very much, Senator.
    Chairman Feinstein. Thank you very much, Senator 
Whitehouse.
    Mr. Gompert, the Committee will be sending you additional 
questions for the record. I'd like to ask all members through 
their staffs here today to have any questions submitted by noon 
on Friday so that we can send them to the nominee.
    I agree with those who have pointed out that you are 
clearly qualified--dramatically so. I do not foresee any 
problems, but who knows. In any event, we'd like to thank you; 
we'd like to thank your family. And thank you also for the 
service you are about to render. We very much appreciate it and 
this hearing is adjourned.
    [Whereupon, at 3:42 p.m., the Committee adjourned.]
                         Supplemental Material

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
